2311 Douglas Street
Omaha, Nebraska 68102-1214

TN
CASS

Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No. 20-551
JACK WITT VORIS,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), | certify that the REPLY BRIEF IN SUPPORT
OF CERTIORARI in the above entitled case complies with the typeface requirement of Supreme

Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point

for the footnotes, and this brief contains 2968 words, excluding the parts that are‘exempted by

Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 12th day of March, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS 9.
My Comm. Exp. September 5, 2023

Notary Public

       

Odea, Blale

Affiant 40797
